                      0


             MANAGEMENT OF RESOURCES AT THE
             DOD ELECTRONIC COMMERCE OFFICE


Report No. 98-138                         May 27, 1998




              Office of the Inspector General
                  Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD Home Page at: WWW.DODIG.OSD.MIL.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:
                      OAIG-AUD (ATIN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

DLA                   Defense Logistics Agency
DSS-W                 Defense Supply Service - Washington
GSA                   General Services Administration
IMPAC                 International Merchant Purchase Authorization Card
MIPR                  Military Interdepartmental Purchase Request
OPM                   Office of Personnel Management
WHS                   Washington Headquarters Services
                             INSPECTOR GENERAL
                             DEPARTMENT    OF DEFENSE
I                              400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202




                                                                          May 27, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
                 AND TECHNOLOGY
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Management of Resources at the DOD Electronic
         Commerce Office (Report No. 98- 138)


      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Management comments conformed to the requirements of DOD Directive 7650.3 except
for the recommendation to terminate the interagency agreement for training services.
Therefore, we request the Deputy Under Secretary of Defense (Logistics) provide
additional comments on Recommendation 2. g . by July 27, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Joseph P. Doyle at (703) 604-9348 (DSN 664-9348) or
Ms. Addie M. Reirna at (703) 604-9231 (DSN 664-9231). See Appendix C for the
report distribution. The audit team members are listed inside the back cover.




                                         Robert f. Lieberman
                                      Assistant Inspector General
                                              for Auditing
                            Office of the Inspector General, DOD
Report No. 98-138                                                        May 27, 1998
   (Project No. 7CK-5036)

                           Management of Resources at
                       the DOD Electronic Commerce Office

                                   Executive Summary

Introduction. The DOD Electronic Commerce Office was established within the
Defense Logistics Agency but was functionally under the Deputy Under Secretary of
Defense (Acquisition Reform). The Defense Logistics Agency provided personnel and
administrative services, while the DOD Electronic Commerce Office reported to the
Deputy Under Secretary of Defense (Acquisition Reform) for mission related issues.
The mission of the DOD Electronic Commerce Office was to facilitate DOD-wide
implementation of electronic commerce/electronic data interchange and to ensure DOD
compliance with legislation directing the use of electronic commerce for Federal
purchases.

Audit Objectives. The audit objective was to evaluate the adequacy of management
practices and controls over resources at the DOD Electronic Commerce Office.
Specifically, we determined whether management practices and controls over staffing,
funding, contracting, and property complied with applicable regulatory and statutory
guidance. We also reviewed the management control program as it applied to the audit
objectives.

Audit Results. Management practices and controls in the DOD Electronic Commerce
Office were not adequate to protect and conserve $1.4 million of Government resources
(see Appendix B), preclude potential Antideficiency Act violations, or ensure that at
least 810 hours of annual and sick leave taken were deducted from employee leave
balances. The manager primarily responsible for management controls within the DOD
Electronic Commerce Office was transferred to the Defense Logistics Agency in April
1997 and has since retired. See Part I for a discussion of the audit results and
Appendix A for details on the management control program.

Summary of Recommendations.           We recommend that the:

        l Under Secretary of Defense for Acquisition and Technology realign the
Electronic Commerce Division organizationally and functionally under a single entity,
and investigate whether transactions with the Office of Personnel Management for
training services and transactions associated with the document imaging and
management system contract resulted in Antideficiency Act violations and failed to
comply with DOD Directive 7200.1, “Administrative Control of Funds and
Antideficiency Act Violation. n
        l Deputy Under Secretary of Defense (Logistics) establish and implement a
management control program in the Electronic Commerce Division; adjust employee
leave balances to reflect unreported leave taken; cancel existing International Merchant
Purchase Authorization Cards and obtain new cards from the Defense Logistics
Agency; implement procedures for using International Merchant Purchase
Authorization Cards; monitor funds obligated on Military Interdepartmental Purchase
Requests; terminate the interagency training agreement with the Office of Personnel
Management; return excess property; reevaluate computer support services
requirements and adjust as appropriate; and use excess workstations to furnish the Life
Cycle Information Integration Office.

        l Commander, Defense Supply Service-Washington,          discontinue issuing
delivery orders against General Service Administration total quality management
contracts for services that are outside the scope of the contracts.

Management Comments. The Deputy Under Secretary of Defense (Logistics)
responded for the Under Secretary of Defense for Acquisition and Technology and the
Director, Life Cycle Information Integration Office, and concurred or partially
concurred with all recommendations. The Deputy Under Secretary agreed to realign
the Electronic Commerce Division under a single entity, the Joint Electronic Commerce
Program Office; investigate two potential Antideficiency Act violations; establish and
implement a management control program; review unrecorded leave; cancel existing
International Merchant Purchase Authorization Cards; comply with Military
Interdepartmental Purchase Request guidance; return excess property; terminate an
automated data processing support services agreement; and redistribute office
workstations. The Deputy Under Secretary partially concurred with the
recommendation to terminate the interagency agreement for training services, stating
that no action will be taken until after the Antideficiency Act violation determination.
The Army, as executive agent for the Defense Supply Service-Washington, concurred
with the recommendation to cease issuing delivery orders outside the scope of the
General Services Administration total quality management contracts. See Part I for a
summary of management comments and Part III for the complete text of management
comments.

Audit Response. Management comments were fully responsive to all draft
recommendations except the recommendation to terminate the interagency agreement
for training services. We do not agree with management’s position to delay
termination of the interagency agreement until completion of the potential
Antideficiency Act violation review. The potential Antideficiency Act violation is a
separate issue unrelated to the provisions of the Economy Act and should not impact
the decision to terminate the interagency agreement for training services. Therefore,
we request that the Deputy Under Secretary of Defense (Logistics) reconsider the
position on this recommendation and provide additional comments on this
recommendation by July 27, 1998.




                                             ii
Table of Contents
Executive Summary                                                         i


Part I - Audit Results
      Audit Background                                                   2
      Audit Objectives                                                   3
      Management Controls Over EC Office Resources                       4

Part II - Additional Information
      Appendix A. Audit Process
        Scope
        Methodology                                                      ;z
        Management Control Program
        Summary of Prior Coverage
      Appendix B. Management of Government Resources
                                                                         ii
                                                                         25
      Appendix C. Report Distribution                                    26

Part III - Management Comments
      Office of Deputy Under Secretary of Defense (Logistics) Comments   30
      Department of the Army Comments                                    36
Part I - Audit Results
Audit Background

    History of the DoD Electronic Commerce Office. Executive Memorandum,
    “Streamlining Procurement through Electronic Commerce,” October 26, 1993,
    required the implementation of electronic commerce for Federal purchases. The
    Secretary of Defense established the DOD Electronic Commerce Office (EC
    Office) within the Defense Logistics Agency (DLA) to facilitate DOD-wide
    implementation of electronic commerce/electronic data interchange. DLA
    General Order No. 07-94, February 28, 1994, established the EC Office as a
    DLA field operating activity under the Deputy Director (Acquisition), DLA. In
    January 1995, the EC Office was reorganized and began reporting to the Deputy
    Under Secretary of Defense (Acquisition Reform) for mission related issues.
    DLA continued to provide personnel and administrative services to the EC
    Office. In February 1997, functional oversight of the EC Office was realigned
    to the Deputy Under Secretary of Defense (Logistics) and in April 1997, the
    former Director of the EC Office was transferred to DLA and subsequently
    retired. In July 1997, the EC Office became the Electronic Commerce Division
    within the Life Cycle Information Integration Office. As a result of the Defense
    Reform Initiative, functions and resources of the Life Cycle Information
    Integration Office were incorporated into the Joint Electronic Commerce
    Program Office in February 1998.

    Funding aud Resources. Washington Headquarters Service (WHS) provided
    financial, accounting, budget, and travel support to the EC Office. Table 1
    shows the EC Office resources as reflected in the FY 1998 President’s Budget.’

     Table 1. EC Office Resources Reflected in the F’Y 1998 President’s Budget

                  FY96     FY97     FY98    FY99    FYOO FYOl       FY02     FY03
    Manpower:
     Military         1:       1:      1:      1:      1:       1        1       1
     Civilian                                                  16       16      16

    Funding ($M):
     Operations &     13       13      17      15      15      14       14      15
     Maintenance
     Procurement      2        1       3       Z       1       L        1       I
      Total           15       16      20      17      16      15       15      16




    ’ From the March 1997 Electronic Commerce/Electronic Data Interchange
      Baseline Report prepared by the Acquisition Program Integration Office.

                                        2
     EC Offke Management. The Director of the EC Office was responsible for
     managing the EC Office including establishing and implementing management
     controls to protect and conserve its resources. Neither DLA, the Deputy Under
     Secretary of Defense (Acquisition Reform), nor the Deputy Under Secretary of
     Defense (Logistics) ever assumed responsibility for the efficient and effective
     execution of EC Office operations or its use of resources.



Audit Objectives

     The audit objective was to evaluate the adequacy of management practices and
     controls over resources at the EC Office. Specifically, we determined whether
     management practices and controls over staffing, funding, contracting, and
     property complied with applicable regulatory and statutory guidance. We also
     reviewed the management control program as it applied to the audit objectives.
     See Appendix A for a discussion of the audit process and summary of prior
     coverage related to the audit objectives. See the finding for a discussion of the
     material weaknesses identified, and Appendix A for the details of our review of
     the management control program.
            Management Controls Over EC Office
            Resources
            The Director of the DOD Electronic Commerce Office (the Director)
            failed to adhere to established management controls over staffing, the
            use of funds, contracting, and property and did not implement a
            management control program within the EC Office between February
            1994 and April 1997. This condition occurred because the Director used
            poor judgment and did not receive adequate management oversight. As
            a result, the Director failed to protect and conserve $1.4 million of
            Government resources (see Appendix B), may have violated the
            Antideficiency Act, and did not ensure that 810 hours of annual and sick
            leave taken were deducted from employee leave balances.



Staffing

     The EC Office did not adhere to management controls established to ensure that
     employees worked appropriate schedules and that time and attendance was
     properly recorded. As a result, employees worked excessive overtime hours
     without compensation, and at least 810 hours of annual and sick leave taken
     were not charged against employee leave balances.

     Working Without Compensation. EC Office employees worked excessive
     overtime hours without compensation. According to EC Office staff we
     interviewed, the Director told the staff not to work overtime. However, the
     Director routinely convened late meetings and gave lengthy assignments at the
     end of the day stating that the work had to be completed by the start of the next
     day. While the office policy was that there was no overtime compensation, the
     perception of staff members was that they had to work uncompensated overtime
     to accomplish the Director’s assignments. According to a senior EC Office
     official, the Director was unforgiving if assignments were not completed within
     deadlines. For example, a GS-14 procurement analyst who had been working
     excessive hours asked the Director for compensation of overtime worked and
     was told by the Director that it was office policy that there was no overtime
     compensation. Yet, pressure from the Director and the urgency of the work
     caused this employee to continue to work excessive hours until she eventually
     collapsed on the job three times. The employee was diagnosed as suffering
     from exhaustion. Although the Director did not order EC Office employees to
     work overtime, the Director’s actions and temperament coerced some into
     working uncompensated overtime. This included a nonexempt employee subject
     to provision of the Fair Labor Standards Act. Neither the EC Office nor the
     affected employees maintained records of overtime worked. As a result, we
     could not quantify the uncompensated overtime hours.
                                Management Controls Over EC Office Resources


    Time and Attendance. The Director did not adhere to controls provided in
    DOD 7000.14-R, “DOD Financial Management Regulation,” Volume 8,
    “Civilian Pay Policy and Procedures,” January 1995, to ensure that leave taken
    by EC Office employees was properly reflected in official records. A review of
    EC Office, DLA, and Defense Finance and Accounting Service time and
    attendance documents showed that the Director did not ensure timely and
    accurate preparation, certification, and submission of time and attendance
    documents, or ensure that necessary corrections to time and attendance were
    appropriately recorded. As a result, EC Office employees took 810.25 leave
    hours (587.5 hours annual leave and 222.75 hours sick leave) between October
    1995 and September 1996 that were not deducted from official leave balances.
    This leave was not reported because the EC Office did not have a management
    control program in place to ensure that established controls over recording and
    certifying time and attendance were functioning as intended. In addition, a
    review of travel vouchers indicated that EC Office employees took 104 of the
    587.5 hours of unreported annual leave in conjunction with temporary duty
    travel. The leave, taken by the Director (24 hours) and two analysts (80 hours),
    was documented on travel claims, but was not reported to the Defense Finance
    and Accounting Service. On December 9, 1997, we provided the Director, Life
    Cycle Information Integration Office, details of the unreported leave so that the
    office could take appropriate corrective action.



Use of Funds

    The Director failed to adhere to established management controls over Military
    Interdepartmental Purchase Requests (MIPRs) and International Merchant
    Purchase Authorization Cards (IMPAC cards). As a result, the EC Office did
    not protect and conserve funds totaling $278,771 entrusted to its use as shown
    in the chart on page 8.

    Military Interdepartmental Purchase Requests. The Director did not
    implement management controls established by the Office of the Secretary of
    Defense to monitor funds provided to Defense agencies on 42 MIPRs which
    allowed $237,918 of funds to expire that should have been reprogrammed for
    other use. In addition, the EC Office did not ensure that another $32,3 19 in
    MIPR funds was used as intended.

            Established Controls. The Under Secretary of Defense (Comptroller)
    Memorandum, “Quarterly Reviews of Commitments and Obligations, n May 14,
    1996, required the EC Office to review obligations a minimum of three times a
    year to ensure the accuracy, completeness, and timeliness of financial
    transactions. Office of the Deputy Under Secretary of Defense (Acquisition
    Reform/Electronic Commerce)-002, “Military Interdepartmental Purchase
    Request Standard Operating Procedure, n March .l1, 1996, provided standard
    operating procedures for the use of MIPRs. The operating procedures required
    the EC Office to monitor funds obligated on MIPRs.



                                        5
Management Controls Over EC Office Resources


              Expired Funds. The EC Office allowed funds issued on MIPRs to
      expire without attempting to reallocate them for other use. The EC Office
      issued 42 MIPRs totaling about $11.9 million between December 1995 and
      April 1997 to fund electronic commerce projects and obtain support services.
      Contrary to the cited Under Secretary of Defense (Comptroller) memorandum
      and standard operating procedures, the EC Office did not review funds
      obligated on MIPRs at least three times a year. In fact, according to EC Office
      program managers, they rarely reviewed or adjusted obligations associated with
      MIPRs. A review of expenditure documents provided by the MIPR recipients
      showed that the EC Office allowed $237,918 issued on 19 of those MIPRs to
      expire without attempting to get the funds back or put them to other use. As a
      result of this audit, MIPR recipients returned $186,824 of the expired $237,918
      to the EC Office before the audit field work ended. The EC Office should
      request the return of the remaining $51,094 of expired funds, monitor future
      MIPR funds, and request that unobligated amounts be returned and reallocated
      in a timely manner.

              Funds Used For Purposes Other Than Intended. A DLA project
      manager, now deceased, alleged that DLA did not use $32,3 19 provided by the
      EC Office for its intended purpose. The EC Office provided the funds to DLA
      to support the Automated Bidset Interface project. According to the DLA
      project manager, DLA diverted the funds from the approved project to purchase
      the Architect project management tool and two laptop computers for the general
      support of the DLA project office. Our review concluded that the funds were
      spent to purchase the Architect project management tool and the laptop
      computers without EC Office approval or knowledge. We confirmed that
      neither the management tool nor the computers were used for the Automated
      Bidset Interface project, which subsequently was canceled. Because the EC
      Office did not monitor the project, they were unaware that DLA used the funds
      improperly.

      International Merchant Purchase Authorization Cards. The Director failed
      to adhere to management controls for obtaining and using IMPAC cards.

             Established Controls. Management controls over IMPAC cards used
      by the EC Office are established in the Defense Supply Service-Washington
      (DSS-W) User’s Guide for the Commercial Credit Card Program (the IMPAC
      Guide). The IMPAC Guide provides policy and procedures for cards issued by
      DSS-W including how to obtain a card, who is authorized to use the card, what
      can be purchased with the card, and where purchases can be made.

              Obtaining IMPAC Cards. The EC Office inappropriately obtained
      IMPAC cards for the EC Office and the Deputy Under Secretary of Defense
      (Acquisition Reform). The then Deputy Director inappropriately directed a
      junior budget analyst to sign three IMPAC card applications (DD Form 1262,
       “Administrative Service Request”) as the “Fiscal Officer. n The procedures for
      obtaining IMPAC cards require the organization’s Fiscal Officer to sign the
      DD Form 1262 to certify that funds are available to pay for IMPAC purchases.
      The Chief, Installation Accounting Division, WHS, was the Fiscal Officer for
      the EC Office and Deputy Under Secretary of Defense (Acquisition Reform).
      The IMPAC Guide prohibited DSS-W from issuing the IMPAC cards without


                                          6
                             Management Controls Over EC Office Resources


the appropriate signature. DSS-W employees later questioned processing the
applications because they were not signed by the proper authorizing official.
However, they were instructed by their supervisor, the then Commander,
DSS-W, to process the applications anyway. In obtaining the IMPAC cards,
the EC Office and DSS-W ignored controls established to ensure that cards are
issued only to appropriately authorized individuals. Having ignored controls
over obtaining the cards, the EC Office further ignored established controls over
their use.

        Using IMPAC Cards. The Director, under the premise of acquisition
reform, did not adhere to controls established over the use of the IMPAC cards.
The Director permitted unauthorized users to make purchases using the IMPAC
cards and did not use the required precedence of sources when acquiring
supplies and services. The acquisition reform emphasis on expanding the use of
IMPAC cards was never intended to encourage poorly controlled purchasing
practices.

                Authorized Users. EC Office officials routinely permitted
unauthorized users to use IMPAC cards to make purchases. According to the
Guide, only trained IMPAC cardholders whose names are embossed on the
cards may use those cards to purchase goods and services from appropriate
sources. The EC Office cardholders were the most junior clerical staff
members whose power to limit such abuses was greatly diminished. For
example, an authorized cardholder was directed to provide the IMPAC card
number to enable an unauthorized user to make purchases. The junior employee
notified EC Office management, per the Guide, that unauthorized users were
not allowed to make purchases with the IMPAC card. EC Office management
continued its unauthorized use of the card over the objections of the cardholder.
That cardholder resigned from Federal service in October 1996, yet records
indicated that the EC Office continued its unanthorized use of that IMPAC card
until December 1996.

                 Required Sources. The EC Office obtained supplies and
services from commercial sources with IMPAC cards rather than from the
required sources identified in the Federal Acquisition Regulation, Part 8.001,
“Priorities for Use of Government Supply Sources. * The required sources list
was provided to help management protect and conserve resources when
acquiring supplies and services. Source precedence is as follows: existing
agency inventory; excess from other agencies; Federal Prison Industries, Inc. ;
National Industries for the Blind/National Industries for the Severely
Handicapped; General Services Administration (GSA); mandatory Federal
Supply Schedules; optional use Federal Supply Schedules; and commercial
sources. Contrary to this guidance, the EC Office routinely used IMPAC cards
to satisfy its requirements from commercial sources. Between February 1996
and March 1997, the EC Office used IMPAC cards to purchase $8,534 of
supplies and services from commercial sources. Some examples of purchases
made from inappropriate sources follow.




                                    7
Management Controls Over EC Office Resources


                            Office Supplies. The EC Office improperly used IMPAC
      cards to purchase $5,804 of ordinary office supplies from commercial sources
      when the supplies were available from the DSS-W Self Service Supply Center
      or from other required sources such as GSA.

                              Printing Services. The EC Office used IMPAC cards to
      improperly purchase $2,320 of printing services from a commercial source.
      The Guide specifically prohibits the use of the IMPAC card for purchasing
      printing or copying services from commercial sources. The Federal Acquisition
      Regulation, Part 8.802, “Policy” for acquisition of printing and related supplies
      requires that government printing be done by or through the Government
      Printing Office unless that office cannot provide the printing service or the
      printing is done in field printing plants operated by an executive agency, such as
      the Defense Automated Printing Service.

                            Courier Services. The EC Office imprudently used
      IMPAC cards to purchase courier services costing about $410 to transport
      materials to Fort Belvoir, Virginia, even though the EC Office was paying for
      mail service between the two points through its interagency support agreement
      with the DLA Administrative Support Center.

              Table 2. Mismanagement of MIPR and IMPAC Card Funds

      Expired MIPR Funds                                                      $237,918

      MIPR Funds Used for Purposes Other Than Intended                           32,3 19

      IMPAC Card Purchases From Inappropriate Sources                             8,534

         Office Supplies                                    $5,804
         Printing Services                                   2,320
         Courier Services                                      410

                     Total                                                    $278,771




Contracting

      The EC Office did not implement management controls over contracting
      actions. Consequently, there was no assurance that contracting actions totaling
      $714,998 were performed in accordance with provisions of the Economy Act,
      Antideficiency Act, and Federal Acquisition Regulation. The EC Office:

              l allowed the Office of Personnel Management (OPM) to continue to
      obligate funds under an Economy Act order even though the obligation period
      had expired,


                                           8
                             Management Controls Over EC Office Resources


        l contractually obligated funds without a bona fide need for the services
in the year in which the contract was awarded, and

       l   entered into an unauthorized commitment with a contractor.

In additiqn, DSS-W inappropriately used two GSA total quality management
contracts to acquire services that were not within the scope of the contracts.

Economy Act Obligations. The EC Office disregarded controls over the use of
Economy Act orders and may have violated the Antideficiency Act. In 1994,
the EC Office entered into an interagency agreement with OPM for electronic
commerce/electronic data interchange training services. The agreement was
governed by Title 31, United States Code, Section 1535, (known as the
“Economy Act”). Contrary to the Economy Act, the EC Office did not request
OPM to return unobligated funds at year-end. Section (d) of the Economy Act
states that the ordering agency obligates an appropriation when it establishes an
interagency agreement. When the agency filling the order has not obligated
funds before the end of the appropriation’s period of availability, those funds
should be deobligated by the ordering agency. In the case of the Operations and
Maintenance appropriation, funds are available for obligation only in the year in
which they are appropriated.

Based on the interagency agreement, the EC Office transferred $800,000 of
FY 1994 Operations and Maintenance funds to OPM. OPM deposited the funds
in a revolving fund. OPM obligated only $494,743 of the $800,000 before the
period of funds availability expired and retained the remaining $305,257 in its
revolving fund. During FYs 1995 and 1996, the EC Office amended the
interagency agreement to add Operations and Maintenance funds totaling
$714,746. Contrary to guidance contained in the Economy Act, the EC Office
did not request that OPM return unobligated funds totaling $601,742 between
FYs 1994 and 1996. Instead, the funds remained comingled in the OPM
revolving fund and were used by the EC Office to acquire training services in
subsequent fiscal years. The EC Office did not provide FY 1997 funds to
OPM. Instead, it used prior year OPM funds totaling $5,836 to acquire training
services in FY 1997. As a result, the EC Office may have violated the timing
element of the Antideficiency Act. Table 3 shows that as of May 1997,
$595,906 remains unobligated in the OPM revolving fund, thereby precluding
funds being put to better use.




’ Contracts for training Government employees to take independent actions to
  improve their organizations.

                                     9
Management Controls Over EC Offke Resources



             Table 3. Status of Funds Paid to Office of Personnel Management

                                        Funds Obligated
        FY            Funds Paid        on Work Orders         Unobligated Funds

       1994         $ 800,ooo.00          $494,743.32              $305256.68
       1995           296,746.O            259,280.22                37,465.78
       1996           418,ooo.oo           158,980.45               259,019.55

      Subtotal      $1,514,746.00         $913,003.99              $601,742.01

       19973                 0.00             5,836.25                (5J336.25)

      Total         $1,514,746.00         $918,840.24              $595,905.76

     The EC Offrce should terminate the interagency agreement and request that
     OPM perform a final accounting of project costs and return unobligated funds.
     Also, the Office of the Under Secretary of Defense for Acquisition and
     Technology needs to determine whether an Antideficiency Act violation
     occurred.

     Bona Fide Need. EC Office officials disregarded the bona fide need rule when
     they obligated funds on a contract at the end of FY 1996, even though the work
     could not begin until the second quarter of FY 1997. The bona fide need rule
     prohibits the obligation of funds in one fiscal year for services required in a
     subsequent fiscal year. On September 20, 1996, the EC Office transferred
     $113,092 to DLA on a MIPR. On September 25, 1996, DLA obligated the
     funds on a contract for a document imaging and management system, but
     instructed the contractor not to begin work until further written notice, The EC
     Office staff had to catalog all office documents and identify documents to files
     before the contractor could begin scanning the documents into the system. The
     EC Office was not prepared to have the contractor begin performance on the
     contract until the second quarter of the next fiscal year. Therefore, the EC
     Office violated the bona fide need rule and, unless corrective FY 1997 funding
     is available, may have violated the timing element of the Antideficiency Act.

     Unauthorized Commitment. The EC Office did not implement management
     controls established in the Federal Acquisition Regulation to preclude
     unauthorized financial commitments. As a result, an EC Office employee
     committed the EC Office to an unauthorized facial       obligation totaling
     $6,000. The EC Office employee instructed a vendor to obtain and pay for an
     exhibit space at the 1996 “CALS Expo” exhibition. The EC Office did not
     have a contractual agreement with the vendor to acquire such services and the
     employee who made the commitment had no contracting authority. Based on
     preliminary audit recommendations, DSS-W took action to ratify the
     unauthorized commitment in accordance with Federal Acquisition Regulation,
     Part 1.602-3.

      3 This data covers the period October 1996 through May 1997 only.

                                        10
                                 Management Controls Over EC Office Resources


     Services Outside the Scope of the Contract. The DSS-W incorrectly used two
     GSA total quality management contracts to acquire services that were not within
     the scope of the contracts. According to GSA Federal Supply Service officials,
     use of the contracts was limited to acquiring services to train government
     employees to take independent actions to improve their organizations. Contrary
     to this guidance, the EC Office prepared two statements of work that did not
     promote organizational improvement. One statement of work required the
     contractor to perform a cost-benefits analysis to determine the return on
     investment for current EC Office projects. The other statement of work
     required the contractor to evaluate DOD contractor past performance systems to
     determine how best to use performance data when selecting contractors.
     DSS-W used the statements of work to issue two delivery orders against two
     total quality management contracts. According to GSA officials, the tasks
     identified in the statements of work did not lead to products that improved the
     overall performance of the organization as intended in the scope of the
     contracts. Also, both statements of work required the contractor to perform all
     of the work rather than teach government staff members to perform
     independently in the future. Since the required services did not adhere to the
     intent of the total quality management contracts, DSS-W should have used
     another contracting vehicle to acquire the services.

           Table 4. Contracting Actions Not Performed in Accordance With
                         Regulatory and Statutory Guidance

     Economy Act Obligations                                               $595,906

     Funds Obligated Without a BOM Fide Need                                113,092

     Unauthorized Commitment                                                   6,oO
                   Total                                                   $714,998




Property

    The Director did not adhere to management controls over property and services.
    Contrary to DOD 7000.14-R. “DOD Financial Management Regulation,”
    Volume 4, “Accounting Policy and Procedures,” January 1995, the Director
    failed to safeguard $404,146 of property from loss or theft, abuse, and waste or
    to manage property efficiently and effectively. As a result, the EC Office
    acquired unneeded, lavish office furnishings and equipment; purchased modular
    workstations without an apparent need; purchased unnecessary automated data
    processing support services; inappropriately leased two GSA vehicles; and,
    incurred excessive long distance cellular telephone charges.




                                        11
Management Controls Over EC Office Resources


      Office Furnishings and Equipment. The EC Office obtained furnishings that
      far exceeded its requirements. The EC Office consisted of 25 individuals
      (15 Government employees and 10 on-site contractors). The EC Office failed
      to protect and conserve $13 1,189 of resources when acquiring desk chairs,
      executive desks, computer central processing units, and laptop computers.

              Executive Desks. The EC Office obtained executive desks in excess of
      minimum office requirements. According to the Deputy for Space and
      Services, Office of the Under Secretary of Defense for Acquisition and
      Technology, the EC Office was not entitled to executive grade furniture for its
      entire staff, they were only entitled to two executive desks. Yet, the Director
      obtained 27 executive desks from the Defense Reutilization and Marketing
      Office and had the Defense Information Systems Agency refurbish them. This
      action resulted in the misuse of assets totaling about $14,380 that could have
      been put to better use (the difference between the 23 executive desks valued at
      $1,003 each and the cost of 23 regular desks at $465 each, plus the cost of 2
      additional executive desks for which there was no apparent need).

             Desk Chairs. The EC Office obtained 35 desk chairs that were in
      excess of its requirements. The EC Office obtained 60 desk chairs for 25 staff
      members, which resulted in the misuse of assets valued at $9,657 that could
      have been put to better use.

               Computer Central Processing Units. ‘The EC Office acquired 31 more
      computer central processing units (computers) than required at a cost of $65,565
      (31 times $2,115). Property records showed that the EC Office had 56
      computers for a staff of 25 Government and contractor employees. The Under
      Secretary of Defense for Acquisition and Technology, Acquisition Program
      Integration/Information Management Office, was aware of the excess computers
      but had not planned to remove them because the EC Office planned to distribute
      the computers to employees so they could work at home.

               Laptop Computers. The EC Office acquired 11 more laptop computers
      than required (an additional 2 laptops were lost and will be discussed later)
      resulting in an unnecessary expenditure of approximately $35,189 (11 times
      $3,199). The EC Office acquired 19 laptop computers but, based on travel
      profiles, required only 6. The Director stated that the laptop computers were
      also used by employees to work at home but sign-out records did not support a
      need for the excess computers.

             Safeguarding Laptop Computers. The EC Office failed to safeguard
      two laptop computers valued at $6,398 from loss or theft. Two executive
      model computers assigned to the EC Office were reported missing and no one
      was held accountable for the loss. One of the lost laptops was provided to the
      Deputy Under Secretary of Defense (Acquisition Reform). The EC Office was
      unable to substantiate whether they or the Deputy Under Secretary of Defense
      (Acquisition Reform) had lost that computer.

      Modular Workstations. In response to an EC Office requisition, WHS
      ordered, without apparent need, 40 modular workstations in October 1996, to
      be designed, fabricated, and installed at the EC Office in Rosslyn, Virginia.


                                         12
                             Management Controls Over EC Office Resources


FY 1997 funds totaling $200,000 were obligated for the purchase. The EC
Office justified the need for the workstations (subsequently deftitized at 37
workstations) based on an increase in the number of EC Office staff, stating that
available space would not accommodate the added staff without the
workstations. In addition, the workstations would allow the EC Office to utilize
all assigned space. However, including Federal employees and contractor
support staff, the EC Office had only 25 people, and there was no provision in
planning and budget documents for them to receive additional staff. Clearly, 12
(37 workstations minus 25 employees) of the workstations were excess to
requirements and resulted in the unnecessary expenditure of $60,000 ($5,000
per workstation x 12). Given that the Director had acquired 27 executive desks
and 60 chairs within the previous 2 years, and that there was no programmed
increase in staff, we question whether the Director had a valid justification for
buying any of the workstations and belieye that the entire $200,000 could have
been put to better use.

It is now the intent to use the workstations to furnish the Life Cycle Information
Integration Office, including the Electronic Commerce Division. This new use
for the workstations represents a cost avoidance of $200,000 to furnish the Life
Cycle Information Integration Office.

Automated Data Processing Support Services. The EC Office purchased
excess automated data processing support. Although there were only 25
assigned employees, the EC Office purchased computer support from the Under
Secretary of Defense for Acquisition and Technology, Acquisition Program
Integration/Information Management Office, for 39 users. The unnecessary
support cost approximately $63,560 (14 times $4,540).

Leased GSA Vehicles. The Director failed to protect and conserve resources
associated with leased GSA vehicles resulting in unnecessary costs of $8,381.
Contrary to applicable guidance, the EC Office inappropriately leased two GSA
vehicles (a Dodge Caravan and a Chevrolet Corsica) through the DLA
Administrative Support Center in August 1996. According to DOD 4500.36-R,
“Management, Acquisition, and Use of Motor Vehicles,” March 1994, the
Director, based on position, was not authorized to lease a minivan. The EC
Office justified the request for the minivan by stating that operational
requirements made it necessary for the staff to attend numerous meetings and
conferences outside the office, and that a minivan was needed to transport a
display booth to various convention sites in the Washington area. In addition,
DOD Instruction 45 15.7, “Use of Motor Transportation and Scheduled DOD Bus
Service in the National Capital Region, n July 3 1, 1985, states that DOD shall
not provide transportation justified solely by rank, prestige, or personal
convenience. The Director justified obtaining the sedan because of the “time
and expense of filing and processing the travel vouchers,” “inconvenience of
using a PtXSOMl car,” and “time wasted waiting for the Metro.”

The EC Office was located on a DOD shuttle bus route and next door to the
Rosslyn Metro station. The Director also had access to various motor pools
where vehicles could have been obtained on those occasions when needed to
transport items to conventions. In addition, the Director had a contract taxi
service. Failure to take full advantage of less costly transportation alternatives


                                     13
Management Controls Over EC Office Resources


      needlessly cost the Government $8,381 ($2,881 to lease the vehicles between
      August 1996 and February 1997, and $5,500 in parking charges). The
      Director, Life Cycle Information Integration Office, took action to correct this
      condition by returning the vehicles to DLA in August 1997.

      Long Distance Cellular Charges. The Director imprudently used a cellular
      telephone to make long distance calls totaling $1,480. In August 1995, the EC
      Office obtained two cellular telephones through DLA, one for the Director and
      the other for the Deputy Under Secretary of Defense (Acquisition Reform).
      The Deputy Under Secretary of Defense (Acquisition Reform) seldom used one
      of the cellular telephones. However, the Director used the other cellular
      telephone extensively. From October 1995 through April 1997, the Director
      used the cellular telephone to make 412 long distance calls even though less
      expensive alternatives were available. For example, AT&T had a Government
      calling card plan that provided Defense Components long distance telephone
      services at significantly reduced rates, which were tied to FTS-2000 contract
      rates. The calling card can be used from any noncellular telephone. By using
      the cellular telephone instead of an AT&T Government calling card, the
      Director failed to protect and conserve resources totaling $1,016.

               Table 5. Property Resources Not Protected and Conserved

      Office Furnishings and Equipment                                        $131,189

         Executive Desks                                   $lf,;;;
         Desk Chairs
         Computer Central Processing Units                  65:565
         Laptop Computers                                   35,189
         Lost Laptop Computers                               6,398


      Modular Workstations                                                     200,000

      Excess Automated Data Processing Support Services                          63,560

      Leased GSA Vehicles                                                         8,381

      Long Distance Cellular Telephones Charges                                   1,016

                    Total                                                     $404,146




                                          14
                                 Management Controls Over EC Office Resources




Oversight

     The Director functioned autonomously in carrying out the fiduciary management
     responsibilities of the EC Office. This occurred because the EC Office was
     established under two separate organizations, neither of which assumed
     responsibility for ensuring the effective, efficient execution of its mission.

     Oversight Responsibilities. Neither DLA nor the Deputy Under Secretary of
     Defense (Acquisition Reform) was clearly responsible for ensuring that the
     Director effectively and efficiently executed the mission of the EC Office. The
     EC Office was organizationally and administratively under DLA and the Deputy
     Director (Acquisition), DLA was responsible for evaluating the performance of
     the Director. However, the Deputy Director (Acquisition) had limited contact
     with the Director and did not have knowledge of EC Office activities. DLA
     provided no direction or oversight of EC Office operations or use of resources.

    The EC Office was functionally under the Deputy Under Secretary of Defense
    (Acquisition Reform). Although the Deputy Under Secretary of Defense
    (Acquisition Reform) approved EC Office initiatives and tasked the office, the
    Deputy Under Secretary of Defense (Acquisition Reform) did not oversee day-
    today operations or the Director’s use of resources.

    The February 1997 realignment of the EC Office to the Deputy Under Secretary
    of Defense (Logistics) perpetuated the fragmented oversight. The realignment
    placed the EC Office functionally under the Deputy Under Secretary of Defense
    (Logistics) but left it organizationally and administratively under DLA. Ideally,
    the EC Office should be functionally and organizationally under a single
    organization. This would establish the clear line of authority and accountability
    absent in the current alignment. Since control of the EC Office was within the
    Office of the Secretary of Defense at the time of the audit, that office may be in
    the best position to ensure that the EC Office effectively and efficiently
    accomplishes its mission. However, the issue is to provide consistent oversight
    and minimize opportunities to mismanage resources by having the EC Office
    organizationally and functionally under one entity.

    Corrective Actions Taken. The new EC Office management was taking steps
    to safeguard EC Office resources. After the office was realigned under the
    Deputy Under Secretary of Defense (Logistics), the Information Management
    Executive drafted a management control program for the EC Office. We
    commend this effort and encourage prompt implementation of the management
    control program. Also, the Defense Reform Initiative Report, November 1997,
    stated that the functions and resources of the Director, Life-Cycle Information
    Integration Office will be transferred to DLA and consolidated with DLA
    elements engaged in electronic commerce/electronic data interchange activities.
    The Director, DLA, and the Director, Defense Information Systems Agency,




                                        15
Management Controls Over EC Offke Resources


      will form a Joint Electronic Commerce Program Office. In our opinion,
      placing the direction of the EC Office under two organizations will not provide
      consistent oversight to the office and may perpetuate some of problems
      discussed in this report.



Summary

     The former Director had the fiduciary responsibility to protect and conserve EC
     Office resources from extravagant, careless, or needless expenditure of funds
     and consumption or misuse resulting from deficient practices, systems, controls,
     or decisions. As evidenced by the examples discussed in the report, the former
     Director clearly mismanaged resources by repeatedly ignoring regulations and
     circumventing checks and balances provided to safeguard staffing, funding,
     contracting, and property resources. In addition, the former Director did not
     establish a management control program to ensure that the EC Office staff
     conserved and protected Government resources. The former Director:

                 caused employees to work excessive overtime without compensation,

                 go;;;nsure     that 810 hours of annual and sick leave were properly
                          ,

                 improperly obtained and used IMPAC cards,

                did not ensure that funds provided to Defense agencies were used as
                intended,

                did not ensure that contracting actions adhered to provisions of the
                Economy Act and the Antideficiency Act,

                procured excess and lavish property, and

                did not ensure that $840,000 of obligated funds were used before
                they expired.

     These conditions occurred because the former Director, EC Office used poor
     judgment and did not receive adequate oversight. The EC Office was
     organizationally established under one office and functionally under another,
     neither of which assumed responsibility for oversight of the effective, efficient
     execution of its mission. As a result, the former Director failed to protect and
     conserve Government resources totaling $1,397,915. The former Director was
      transferred to DLA in April 1997 and subsequently retired.




                                         16
                                Management Controls Over EC Office Resources



Recommendations, Management Comments, and Audit
Response

    Redirected Recommendation. Because the Life Cycle Information Integration
    Office and the Electronic Commerce Division were disestablished, the Deputy
    Under Secretary of Defense (Logistics) responded to recommendations to a draft
    of this report. As a result, Recommendations 2.a. through 2. j . were redirected
    to the Deputy Under Secretary of Defense (Logistics).

    1. We recommend that the Under Secretary of Defense for Acquisition and
    Technology:

           a. Assign administrative and functional responsibility for the
    Electronic Commerce Division to a single entity.

    Management Comments. The Deputy Under Secretary concurred and stated
    that the Electronic Commerce Division had been incorporated into the newly
    created Joint Electronic Commerce Program Office.

            b. Investigate the potential Antideficiency Act violation arising from
    the use of PY 1996 funds to procure training services in PY 1997 using the
    Electronic Commerce Office interagency agreement with the Office of
    Personnel Management, fm responsibility, and if any violation of the
    Antideficiency Act occurred comply with reporting requirements in DOD
    Directive 7280.1, “Administrative Control of Funds and Antideficiency Act
    Violations.”

            c. Investigate the potential Antideficiency Act violation arising from
    the use of PV 1996 funds to acquire document imaging services and a
    management system using delivery order 0011 under contract number
    SP4700-95-D-0005, fix responsibility, and if any violation of the
    Antideficiency Act occurred comply with reporting requirements in DOD
    Directive 7200.1, “Administrative Control of Funds and Antideficiency Act
    Violations.”

    Management Comments. The Deputy Under Secretary concurred and stated
    that Washington Headquarters Services will conduct preliminary reviews of the
    potential Antideficiency Act violations. The reviews began on February 27,
     1998, and will be finished by May 27, 1998.

    4 Recommendations lb. and lc. are made to the Under Secreta of Defense for
      Acquisition and Technology pursuant to the DOD Financial lz anagement
      Manual, Volume 14, Chapter 3, which states that it 1s a mana ement
      responsibility to determine whether an Antideficiency Act via fation occurred.
      Because the former Electronic Commerce Office was organizational1 and
      functionally within elements of Office of the Under Secretary of De tyen;! for
      Acquisition and Technology, the Under Secreta of Defense for Acquisition
      and Technology is responsible for determining ir that office violated the
      Antideficiency Act.

                                       17
Management Controls Over EC Office Resources


      2. We recommend that the Deputy Under Secretary of Defense (Logistics):

             a. Establish a management control program for the Electronic
      Commerce Division to safeguard staffing, funding, contracting, and
      property resources.

      Management Comments. The Deputy Under Secretary concurred and stated
      that tbe Joint Electronic Commerce Program Office had begun to draft a
      comprehensive management control plan that will be completed by July 3 1,
      1998.

              b. Implement a management control program for the Electronic
      Commerce Division that includes tests of management controls over
      staffing, funding, contracting, and property to ensure that management
      controls function as intended.

      Management Comments. The Deputy Under Secretary concurred and stated
      that the management control plan under development will be implemented by
      the Joint Electronic Commerce Program Office.

             c. Review unrecorded leave taken by DOD Electronic Commerce
      Office employees and process leave adjustments or collection actions
      through the Defense Logistics Agency as appropriate.

      Management Comments. The Deputy Under Secretary concurred and stated
      that the Joint Electronic Commerce Program Office will complete a review of
      unrecorded leave by June 30, 1998.

            d. Cancel any remaining International Merchant Purchase
      Authorization Cards obtained from the Defense Supply Service-Washington
      and obtain new cards from the Defense Logistics Agency.

            e. Implement procedures for the use of International Merchant
      Purchase Authorization Cards set forth in Defense Logistics Agency
      commercial credit card user guidance.

      Management Comments. The Deputy Under Secretary concurred and stated
      that the Joint Electronic Commerce Program Office will cancel the International
      Merchant Purchase Authorization Cards immediately and will include
      procedures for the use of the cards in the management control plan under
      development.

             f. Require the Electronic Commerce Division to monitor and make
      adjustments to obligations associated with Military Interdepartmental
      Purchase Requests as required by Under Secretary of Defense
      (Comptroller) Memorandum, “Quarterly Reviews of Commitments and
      Obligations,” and Office of the Deputy Under Secretary of Defense
      (Acquisition Reform/Electronic Commerce)-002, 64Military
      Interdepartmental Purchase Request Standard Operating Procedures.”




                                         18
                            Management Controls Over EC Office Resources


Management Comments. The Deputy Under Secretary concurred and stated
that the Joint Electronic Commerce Program Office will include procedures for
monitoring and making adjustments to Military Interdepartmental Purchase
Requests in the management control plan under development.

       g. Terminate the Electronic Commerce Division interagency
agreement with the Office of Personnel Management for training services
and request that the Office of Personnel Management perform a final
accounting of project costs and return unobligated funds in accordance
with provisions of Title 31, United States Code, Section 1535, “Economy
Act.”

Management Comments. The Deputy Under Secretary partially concurred
stating that the Joint Electronic Commerce Program Off& will take no action to
terminate the interagency agreement for training services until the Washington
Headquarters Services finishes the preliminary Antideficiency Act violation
review.

Audit Response. The Deputy Under Secretary comments are not fully
responsive. Termination of the interagency agreement under Economy Act
provisions is a separate issue unrelated to the potential Antideficiency Act
violation and should not impact the decision to terminate the agreement. We
request that the Deputy Under Secretary reconsider this position and provide
additional comments in response to the final report.

       h. Review Electronic Commerce Division property requirements and
return property in excess of minimum Electronic Commerce Division needs
to Washington Headquarters Services and the Under Secretary of Defense
for Acquisition and Technology, Acquisition Program Integration/Infor-
mation Management Office.

Management Comments. The Deputy Under Secretary concurred and stated
that an inventory of property was conducted when the Electronic Commerce
Division was reassigned to the Joint Electronic Commerce Program Office. The
Joint Electronic Commerce Program Office identified executive desks and desk
chairs for disposition to Washington Headquarters Services, identified excess
computers and accessories for disposition by the Under Secretary of Defense for   ,
Acquisition and Technology, Network Operations, and reassigned laptop
computers and servers within the Joint Electronic Commerce Program Office.

       i. Review and adjust the Electronic Commerce Division automated
data processing support services agreement with the Under Secretary of
Defense for Acquisition and Technology, Acquisition Program Integration/
Information Management Office, as appropriate to support the Electronic
Commerce Division.

Management Comments. The Deputy Under Secretary concurred and stated
that the Joint Electronic Commerce Program Office will include procedures for
the use of automated data processing support services in the management control
plan under development. On April 29, 1998, the Joint Electronic Commerce
Program Office further clarified management’s comments and stated that the


                                   19
Management Controls Over EC Office Resources


      automated data processing support services agreement between the Electronic
      Commerce Division and the Under Secretary of Defense for Acquisition and
      Technology, Acquisition Program Integration/Information Management Office,
      was terminated on March 31, 1998.

              j. Use workstations in excess of Electronic Commerce Division needs
      to furnish all of the divisions of the Life Cycle Information Integration
      Office.

      Management Comments. The Deputy Under Secretary concurred and stated
      that since the Life Cycle Information Integration Office has been disestablished,
      a review is being conducted to determine how the workstations can be used by
      Office of the Deputy Under Secretary of Defense (Logistics) personnel.

      3. We recommend that the Commander, Defense Supply Service-
      Washington cease issuing delivery orders against General Service
      Administration total quality management contracts for services that are
      outside the scope of the contracts.

      Management Comments. The Army, as the executive agent for the Defense
      Supply Service-Washington, concurred with the recommendation. The Army
      stated that the Director of Contracting will issue a letter advising that
      requirements for future delivery orders be carefully scrutinized, particularly
      regarding scope issues, before determining the appropriate method of
      procurement.




                                          20
Part II - Additional Information
Appendix A. Audit Process


Scope

    We reviewed the management of resources at the EC Office. The review
    focused on the use of FYs 1994 through 1997 EC Office resources in the
    following areas: time and attendance, travel, IMPAC cards, MIPRs,
    contract&g, property, leased vehicles; and cellular telephones.



Methodology

    We compared EC Office leave records such as SF-7ls, “Application for
    Leave,” Final Daily Time and Attendance Labor Exception Recaps, and Forms
    45, “Time and Attendance Record, n with DLA Forms 991, “Individual Leave
    Record,” for the period October 1995 through March 1997 to identify and
    quantify leave taken but not reported on official records.

    We reviewed travel vouchers obtained from DFAS-Denver and DFAS-
    Indianapolis for the period October 1995 through March 1997 to determine
    whether claims and reimbursements were appropriate and accurate, and to
    determine whether leave hours reported on travel vouchers were recorded on
    official leave records.

    We reviewed IMPAC card billing statements, sales receipts, and related
    documents for the period February 1996 through March 1997, to determine
    whether IMPAC cards were used in accordance with applicable guidance.

    We reviewed contracts and interviewed Defense Component representatives to
    determine whether funds provided by the EC Office on MIPRs from December
    1995 through April 1997 to support electronic commerce projects were used as
    intended.

    We reviewed total quality management contract delivery orders for the period
    April through August 1996 and interviewed GSA offkials to determine whether
    DSS-W appropriately used total quality management contracts.

    We interviewed officials from OPM, WHS and DSS-W, and reviewed
    interagency agreements with OPM, DLA, and the Department of Commerce for
    the period April 1994 through May 1997, to determine compliance with
    applicable regulatory and statutory guidance.



                                      22
                                                      Appendix A. Audit Process


    We reviewed property records maintained by WI-IS and the Under Secretary of
    Defense for Acquisition and Technology as of April 9, 1997, and physically
    verified automated data processing and other property to determine whether
    property records were accurate and property was appropriate to meet the needs
    of the office.

    We reviewed the justification for leasing GSA vehicles to determine whether
    vehicles were obtained in accordance with DOD regulations.

    We reviewed cellular telephone records maintained by the Defense
    Telecommunications Service, Washington, for the period October 1995 through
    April 1997 and compared the cost incurred to that of alternative telephone
    services to determine whether cellular telephones were efficiently used.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the DFAS payroll and travel systems to identify leave hours and travel
    taken by EC Office employees; WHS Budget System to identify the contracts
    and MIPRs issued for the EC Office; the WHS Property System and the Under
    Secretary of Defense for Acquisition and Technology Automated Data
    Processing System to identify the accountable property assigned to the EC
    Office; and the Under Secretary of Defense for Acquisition and Technology
    electronic mail and Lotus Notes databases to obtain information supporting
    various conditions identified at the EC Office. Although we did not perform a
    formal reliability assessment of the computer systems, we verified the accuracy
    of the data by comparing information on actual leave, travel, contract, MIPR,
    and property records to the data maintained in the computer systems and
    determined that the computer-generated data was generally correct. We did not
    find errors that would preclude use of the computer-processed data to meet the
    audit objectives or that would change the conclusions in the report.

    Audit Type, Date, and Standards. We performed this program audit from
    March 1997 through January 1998 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DOD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD, Office of Personnel Management, GSA, and
    Hughes Training, Incorporated, Falls Church, Virginia. Further details are
    available upon request.



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provide reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.


                                       23
Appendix A. Audit Process


      Scope of Review of the Management Control Program. We reviewed the
      adequacy of EC Office management controls over the management of
      Government resources. Specifically, we reviewed the management controls
      over time and attendance, travel, IMPAC cards, MIPRs, contracting, property,
      leased vehicles, and cellular telephones.

      Adequacy of Management Controls. We identified material management
      control weaknesses for the EC Office as defined by DOD Directive 5010.38.
      The EC Office management controls were not adequate to ensure that
      Government resources were protected and conserved. The recommendations, if
      implemented, will improve management of EC Office resources. A copy of the
      report will be provided to the senior official responsible for management
      controls in the Office of the Under Secretary of Defense for Acquisition and
      Technology and DLA.

      Adequacy of Management’s Self-Evaluation. The audited areas were not
      included in an assessable unit and the EC Office had not established a
      management control program. Therefore, we could not evaluate management’s
      self-evaluation.



Summary of Prior Coverage

      There have been no prior audits that addressed the objectives of this audit. The
      Inspector General, DOD issued ten reports relating to the DoD Electronic
      Commerce/Electronic Data Interchange program from January 1996 through
      October 1997. Six of these reports identified specific problems with the Federal
      Acquisition Computer Network. One report stated that the Electronic
      Commerce Resource Centers were not efficient or cost-effective in promoting
      the implementation or increased use of Electronic Commerce technologies
      between Government agencies and vendors. Another report concluded that the
      Defense Information Systems Agency did not adequately monitor network
      compliance with its license agreement. One report concluded that contractors
      were registering with the Central Contractor Registration Program very slowly.
      The remaining report summarized issues related to the implementation of
      electronic commerce within DOD.

      An investigation of the EC Office by Departmental Inquiries, Office of the
      Inspector General, DOD was completed January 21, 1998 and addressed the
      Director’s use of cellular telephones over an earlier time period.




                                         24
Appendix B. Management of Government
Resources
The EC Off& failed to protect and conserve the following $1.4 million of Government
resources:

Use of Funds
Military Interdepartmental Purchase Requests
        Expired funds                            $237,918
        Funds not used as intended                 32,319     $270,237

Supplies and services purchased with the IMPAC card
rather than from required sources
        Office supplies                          5,804
        Printing services                        2,320
        Courier services                           410            8,534


Contracting
Economy Act Obligations                                         595,906
Funds obligated without a bona fide need                        113,092
Unauthorized commitment                                           6,000


Pronertv
Office furnishings and equipment that exceeded
requirements
        Executive desks                             14,380
        Desk chairs                                  9,657
        Computer central processing units           65,565
        Laptop computers                            35,189
        Lost laptop computers                        6,398      131,189

Unnecessary modular workstations                                200,000               i
Excess automated data processing support services                63,560
Inappropriate lease of two GSA vehicles                           8,381
Long distance calls on a cellular telephone                       1,016



Total Government   Resources                                 $1,397,915




                                           25
Appendix C. Report Distribution

Of&e of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Deputy Under Secretary of Defense (Logistics)
   Deputy Under Secretary of Defense (Acquisition Reform)
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Administration and Management


Department of the Army
Assistant Secretary of .the Army (Financial Management and Comptroller)
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Dudley Knox Library, Naval Postgraduate School


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Information Systems Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency
Director, Washington Headquarters Services
Director, Defense Supply Service-Washington


                                         26
                                                    Appendix C. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Services Administration
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                                                                      .




                                          27
Part III - Management Comments
Office of Deputy Under Secretary of Defense
(Logistics) Comments

                          OFFICE     OF THE UNDER SECRETARY               OF DEFENSE
                                          3000 DEFENSE   PENTAGON
                                         WASHINQTON    DC 2030 I-3000




     7                  FORTRR   INSPSCIORORNSRAL,    DIOARTMRNT      OF DSFRNSB

     bDBJECT:          Draft Audit  Report on Mao&g-t    of Reeourcee         at   the DOD Slectronfc
                       C-rce     (PC) Office (Project No. 7CK-5036)


            The wbjcct  report, dated February 11, 1990, discuesee . potontiel
     violation of th. Antideficiency Act by the lJepmtmnt   of Defense  (DOD)
     Plectronic Coemerca Office during fiscel  yeare 1994-1996.   You requeeted                  that
     thie office, in accordance with DOD 7000.14-R, FinancLel blumgmmt.
     Regulation, teke action to initiate a review of tha potential violation.                     Thie
     action ".a taken Pebruery 27, 1998 with Nashingtoo Wedquarters    Bervicas;                  it
     will couwlude by Mey 27, 1998.

            Additicmelly. you requeatod   that this office provide  c-nte    by April
     13, 1998 on the fiodinge, recomendations,     end aesocieted nvnetery figuree
     cited in the report.    You eteted thet these comente    should deecribe actiona
     taken  or plumed   in reeponee to lgreed upon rec-     d&ions,   end provide the
     ca!glction datoa of the lctiooe. It me requeeted thet specific rmamnm for
     zmn-concwren~e    be stated, with alternative actione end lseocieted monetery
     amount, propoeed.    The rtteched  camenta l re hereby provided in reeponee to
     your request.

           Thenk        you for the opportunity to respond on thin matter.             The point of
     contact     for     this ection ie Mr.  Milve Soltzmen, (703) 275-5332.




                                                      Acting Deputy        undar Secretery
                                                           Of   Defenee   &ogietice)




     Atlxchunt




                                                      30
       Office of Deputy Under Secretary of Defense (Logistics) Comments




              Cc4umnt8    Xegarding the Ubterial Control Woaknossea
                        in Appeadix A to Draft Audit Report
                on   l4uug9mmlt of a**ourcem et the DODECOffice4
                                (Project No. 7CX-50361


     The Office of thn Ondor Socretery of Oafease Nquisitioa     and Technologyl
concurm with the -gemeat     control ueakncmea identified in Appendix A to the
dr8ft audit roprt.    It in eqected   that the veaknaamca partaiaing to tima d
attendance, travel, MPAC cards, MXPRs, cuntractillg,and loXmod vehiclea will
be favorably resolved with the campletion of the MmagmbantControl Plan
dbcummod   in remponmeto Ret ommmdatioa   2.e.  1mpl-tation    of this
naaegcnant Control Plan shall ensur* that OOM rnment remourcem ere protected
and coaaerved, and that there i# adequ4te manegement laai@taaca in overseeing
the tiy-to-day operationa of the Joint Xlectronic Cornwrce Program Office.




                                        31
Office of Deputy Under Secretary of Defense (Logistics) Comments




          Cowentm      Regarding    Rewemendm tiow   Included in DoD (IQ) Dreft Audit Report
                    on nmqement       of Reo0urc.s et the DOD Rlectronic C-rc.     (PC)
                                  Office   uroject HO. 'ICR-5036)

        xntroduction:     During th0 period from February 16, 1999 through Rercb 6, 1996,
        tbe reeourcem end indiridualm coeprieing the Life Cycle Informetion
        Iuteqretiou Office UAXIO, which inchdad       tha DOD EC Office .a . Divi~ioul
        were ccaeolidM.ed into the newly creeted Joint RC Progrem office UXPO).         Tbe
        JRWD    ~8. lateb1iab.d in eccordmnc. with the SKllXP'8 'Defuu. Reform
        Initlativo’    im8u.d in Movombor 1997. The JRCSO was cruted     to provide .
        8ingle office    reapon4bl.  for lccelmreting the epplicetion of RC precticee end
        lm8oairt.d infonnetion t.cba01ogi.a to irprov. DOD lcquisitioa end life-CyClb
        mpport    proceeee..
              A. of the det. of thi. do-nt,       the IL'110 end it. DOD XC Divieion
        effectively heve been di~e.tnb1iab.d.      Moreover, the individuela who
        previously staffed the DoD EC Division hev. ken       reresignm3 to new or similer
        dutism within the JECPD. Prior to thir realignment. the former Executive
        Director of the LCILO Nd8     aignificent progre.. in inproving the supervi8ion
        end standard opereting procedures of the DOD RC Division.        Since the
        permonne1 end procedures of the LCIIO EC Division bev. been incorporated in
        the JRCpO, the JRCPO on behalf of the UBD(A6Tl i. providing the cement.
        requested of tJm former Director, LCIIO

        Reetioxw            for Corrective    Action

        1.   Ue recommend that the Under Secretery of Defense        (Acquisition and
        T.chnoloqyJ  PJSD(ACT) I:

            l   .   &.ign   ldministretive end function.1    reaponribility   for the XC
                    Division to l lingl. entity.

        U6DW6Tl   Concurs.  The information referenced in the ebove introduction
        concisely luaauriz.# the DoD'# efforts to provide  coluimtont overright of the
        Dep8rtwnt'.   RC progren from.  lfngl. point.

            b.      1nv.etig.t. the potenti.    Anti~ficiacy    ACt violation lrising fraP
                    the ue. of ty 1994-1996 fund. to procure treining aeruice. wing     the
                    ECOffice interegency agreement with the Office of Personnel
                    ?6.nag.Mnt   (OSM); fix responsibility; end, if eny violetion of the
                    Antideficiency Act occurred, carply with reporting requirements in
                    DoD Directive 7200.1, ~Mainietretiv.     Control of Pun& end
                    Antidef icieaCy Act Violetiom. '

        USD[A&T) Coaacur8.    CmPabruary 26, 1996, . senior member of the JXCPO
        contected  the Antideficiency Act foul point within tbe Officm of the Under
        Secretery of Defeno. (Coaptrollerl to determine which invemtigetive
        orguziutioo,    utoraal to tbo DoD RC Office, uculd be en lppropriet. entity to
        review the potenti.     violetion refaruwd  above.   Tha focal point lteted
        Wubington    Re.dquerter# Service. IRR61 i8 qualified to conduct l pl~liesine~y
        review.   Was we. the orgeniretion througb which the rjority    of the DOD EC
        Office'~ funding we, proceeeed during the time period referenced in the dreft
        =l=rt.    Rccordiagly, the senior member of the JRCPO met with . representative




                                                       32
           Offke of Deputy Under Secretary of Defense (Logistics) Comments




of WH8 who, after rwierlng         the relevent doouwntetion,   lgrnd      to cwrdineto
the required preliminery        review begina5ng kbruery   27, 1996.

At  the time of thin writing, UHS'e review ie ltill ongoing.   It ie expected
thet thim effort  will be completed by Uey 27. 1996. At that time,   l copy  of
the  report, lloag with this office’e CQIPIWnt#end ret-ndetione,     will be
forwerdod to the DoD IQ.

     E.      Inveetigete the potentiel Antidaficfmcy  Act violetion erioing from
             the uee of PI 1996 funde to acquire do-    t imeging  lervicem end e
             muugawnt aptem ruing delivery or&r 0011 under contrect SP4700-SS-
             D-0005; fix  reeponeibility; end if my viol8tion of the
             Antideficiency Act occurred, comply with reporting rmquiremente in
             DoD Directive 7200.1, 'Adminietretive Control of Fun&   and
             Antideficiency Act Violetions.'

DSD (A&T)    CWCULI.      See the   responm~   at recameen
                                                         detion 1.b.

2.   We rmmmmend         that the Director, LCIIO:

     e.      gmteblieh l menegemnt control progrem    for   the Blectronic C-rce
             DivieIM  to eefeguerd keffing,  funding,     aontrectimg, end proparty
             reeourcea.
JECPD Concure: DOD Directive 5010.38. Vmnag-t       Control Program’ &ted
August 26, 1996, ie the weruching policy directive requiring that DOD
orgenizetiona implement l coraproheneivoeyetm of -gement        controle.   With
reepect to thm JPCW,   Deferma Logietice Agency reguletion 5010.4. end Defense
Informetion gyeteme Agency inetruction 630-125-6, provide ldditionel
iaplementlng requiremente.    In reeponee to thee8 requiremate,   the JBCPD hem
begun to draft l caupraheneive plan of menegemant oontrole tht will provide
reeeoneble l eeurencee that it@ progreme l re opereting l e inteaded.   It i8
anticipeted thet thie plan will be coepleted by July 31. 1991).

      b.     Sapleemnt e mnegement  aontrol progrem for the Plectronic Comerce
             Divirion thet lncludee toete of -g-t       controle over staffing,
             funding contrecting, and property to ensure that -g-t        control8
             function ee intended.

JBCPD Coacure: Upon completion of the plen referenced in 2.e, it will be
irmncdiataly tented, evalueted end ilplomented.   Sqaloyeee of the JPCPO lhell
be provided with l briefing, informing them of etenderd oporeting proceduree
to be followed in l reee such ee lteffing,  trevel, the uee of funde,
contrecting, end property -g-t.

      c.     Review unrocordod leeve  teken by tha DODECOffice uployeee end
             proceee leeve edjuetmente or collective actiona through tha Defenee
             Logistice Agency tDLR) l e lpprupriete.

JtC#)      Cowur8:     Thie review will be concluded   by June 30, 1991.

      d.     Cencol my mining     Intornetioael Net-chant Purchaoo Authorieetion
             Cerde (IHPAC) obteined Zmm the L&f-e    Supply Be-ice-Weehington
             (OS&W) end obtein new cat-de from the DLL




                                                33
Office of Deputy Under Secretary of Defense (Logistics) Comments




        JRCPO Concure: The DSS-W INPAC cerde will be curcelled iadietely.

             l    . Iqleaent      proceduree for we of Intenutionel nerchent Purcheee
                    Authorization     Cerde mot forth in DLA coaeerciel credit cerd ueer
                    guidence.

        4ECPO Conourer Thee8 p-durae                shell be includedin the ifSCP0
                                                                                 meaegaarnt
        Control Olen referenced in l.e.

             f.     Require  the RC Divieionto monitor  end mke  adjudmentm to
                    obligetione asmociated with wilitexy Interdepertmentel Purcbeee
                    Requeete, ee required by Under Secretery of Defenee  (C-troller)
                    Hemrendum 'Querterly Review8 of Comitwnte end Obligetione,' and
                    Office  of the Deputy Under Secretary of Defenee (Acquisition
                    Reform/SC)-002 ‘Military  Interdepettmentel Purcheee Request  Stenderd
                    OpsretingProcedurea.'

        JBCPO Concure: Theee prooedureeehellbe included in the JBCPO Menegement
        Control Plan rmferenced         in 2.8.

             g.     Termhute  the EC Interagency Agreement with the OPU for treining
                    lervicee end requeet the OPH perform a fine1 lccounting of project
                    coete end returnunobligetedLade in eccordaacewith provieioneof
                    Title 31, United Stete8Code, Section 1535, 'Pconomy Act.’

        JECFOPertielly Concure: Action on thie recorundetion   lhell be held in
        ebeyence, pending completion of the DoD RBS review diecueeed in the reepcae
        to Recomaandetion 1.b.

             h.     Review EC Divieion property requiremente end retuTr)property in
                    ucceee of minimum neede to Wadington  Heedquartere Senricee end the
                    USDtA&T) Acquisition Program Integration/Informetion Meneg-t
                    Office.

        JRCPO concure: At the time of the EC Divioion'o reeeeignment to the JRCPO, an
        inveatoryof ite furniehing,lqui&wnt, end propertywee conducted. Sxecutive
        deeke end deek cheire, under the control of the DoD EC Division. were
        identified for disposition to DOD UHS. raploymea who relocated to the JXPO
        were llloved to teke their conputere and ecceeeoriee with them. Bxceee
        computer8end lcceesorienwere left for diepoeitionby IJSD(ALT) Retwork
        Operetione.          Laptop conputere end   n   emre   were reeaeigned to JHCPO Inventory
        bleneg-t      .
             i.     Review end edjuet the EC Divieion automated data proceeehg (ADP)
                    lupport lexvicee lgre-t    with the USD(AAT) hquiaition  Program
                    Xntegretion/Inforeetion Umegemeat Office.

       ‘JBCPOconcurer Proceduroe for the uee of ADP                eupport      lezdcee      shall be
        included in the JECPO Menegewent Control Plen              referenced      in     2.e.

             j. Wee uorketetionein l xeeee of SC Divieion needa to furnish lll
                    divishu       of the X110.




                                                          34
        Offhze of Deputy Under Secretary of Defense (Logistics) Comments




JSCRO Conourmr  Aa ltated ~revioualy, tbo LCIIO and itm DOD ZC Division
offectivoly ba-sa beea dimemtrblisbad. Elowver, a roviaw is uaUeru8y to
detmmino how theme rorkmtationm caa kst k utilized to mapport 080 Lugiaticm
pormnnal remaining in tbo Bkyliaa com@u.    or pomibly within Crystal City.




                                    35
Department of the Army Comments


                                  OEFANTYENT       OF THE ARMY
                      ~#lHC~EASWlANllOlUE-
                                       WuYYPENl~
                                    wAswNa?oN DC m1MloE
                                       11March1998




     MEMORANDUM FOR THE INSPECTOR GENERAL DEPARTMENT OF
                         DEFENSE (AUDITlING)

     SUBJECT: IG, DOD Draft Report Management of Resources at the DoD
              Electronic Commerce Office, Project No. 7CK-5036


        The following response to subject reporl Is provided as requested:



         E(gQjgg. The Director of the DoD ElectronicCommerce OfQce (the Director)
     failed to adhere to established management controlsover staffing, the use of
     funds, contracting, and property and did not impkrnv3nta management control
     program within the EC Ofke between February 1984 and April 1997. This
     condition occurred because the Dii        used poor judgment and did not receive
     adequate management oversight. As a result, the Directorfailed to protect and
     conserve $1.4 million of Govemment msources (see Appendix B), may have
     violated the Antideficiency Act, and dii not ensure that 810 hours of annual end
     rich leave takan were deducted from employee leave babtnces.

        Recommandatlon        That the Defense Supply ServiuHVashington cease
     issuing delivery orders against General Service Administrationtotal quality
     management contracts for services that are o&Me the scope of the contracts.

         m.                         Concur. Two DSS-W delivery orders (DASWOI-Q6-
     F-l 136 and DASWOI-95F-2182) issued against the GSA total quality
     management contracts were not within scopa. The Director of Contmotingwill
     issue a tetter to the the approprkte dlvlsionand branch advising that
     requirements Ibr d&very orders be scrutinizedmore carefully ln the Mum,
     particularly regarding scopa issues, before determiningthe rpproprtate method
     of proourement Tha Principal Assistant rasponsibb for Contracttngand the
     Management & Oversight Divisionwill k responsiblefor validating compliance
     in the course of executing their normal overslghtmsponsibii.      Target date for
     tetterk 15Aprfr 1998.




                                             36
                                               Department of the Army Comments




                                                                                   Final Report
                                                                                    Reference




WI        Cm.          One inaccuracyappears on page 7 of tha draft report
concerning ‘Obtaining IMPAC Card&’ The seMence ‘However, they wem
instructed by their rupe&or, who subequentty bacame the EC Office Deputy           Revised,
Director, to proce8r tha application8anyway.’ is not correct. The supervisor who   page 7
instruded them to take this actlon was not the divisionchii. It was the divislon
chief at that time who later became the EC Dffice Deputy Dim&r.

   Any questions concerningthis memorandum should be directed to the
Director of Contracting, Ms. Sandm Sieber, telephone 6934009.




                                              &           IkzL
                                              ALVIN 0. COMBS
                                              Director
                                              Internal Review

CF: SAM+-PMO-L
Audit Team Members

The Contract Management Directorate, Offke of the Assistant Inspector
General for Auditing, DOD, produced this report.

Paul J. Granetto
Joseph P. Doyle
Addie M. Beima
Beth A. Kilbom
Ellen P. Neff
David L. Spargo
Andrew J. Filer
Michael J. Guagliano
Amy L. Schultz
